______________________________

MEMORANDUM

                                                                      August 8, 2000
To:       Barbara Hannigan
From: Walter Stachnik
Re:       Voluntary contributions guidance (OIG-314)
We recently investigated allegations in a regional office that several staff felt pressured to
contribute for a senior manager’s going away party. Because of a funding shortfall for the party,
staff that had not yet contributed were sent an e-mail (with a cc: copy to a senior office
manager). Some staff may also have been visited by one of the party organizers.
We understand that you received a similar complaint, and that your office worked out
procedures with the regional office to help prevent a repetition. Because farewell parties are
frequently held, “best practices” guidance would be helpful for all Commission staff.
This guidance would summarize the relevant ethics rules, and include a discussion of the
following issues:
      •   Contributions are voluntary, and nothing should be done to suggest otherwise;
      •   Memoranda soliciting contributions should be sent from an anonymous mailbox to
          everyone, not just to those who have not contributed;
      •   Solicitation memoranda should be reviewed by the ethics liaison in advance;
      •   In person solicitations are not appropriate; and
      •   Solicitations from a supervisor to a subordinate are prohibited.
          Recommendation A
          The Ethics Counsel in the Office of the General Counsel should issue guidance to the
          staff on voluntary contributions for farewell parties, as discussed above. The guidance
          should be posted on the Intranet for ease of reference.
cc: David Becker
Bill Lenox
Estee Levine
Jim McConnell
Darlene Pryor
